               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Lessons Learned from Mail
    Processing Network Rationalization
                Initiatives



         Management Advisory Report




                                              March 27, 2013
Report Number NO-MA-13-004
                                                                        March 27, 2013

                                             Lessons Learned from Mail Processing
                                                 Network Rationalization Initiatives

                                                        Report Number NO-MA-13-004



BACKGROUND:
In 2003, the President’s Commission on       lessons learned from project planning,
the U.S. Postal Service found that the       communications, and execution of these
Postal Service had more facilities than      initiatives.
needed and recommended optimizing
the facility network by closing or           WHAT THE OIG FOUND:
consolidating mail processing centers.       The Postal Service has improved its
The Postal Accountability and                mail processing network optimization
Enhancement Act of 2006 encouraged           efforts as a result of lessons learned
the Postal Service to continue               from current and past initiatives;
streamlining its processing and              however, further refinements are
distribution network to eliminate excess     warranted. The Postal Service could
costs. The Postal Service initiated          improve communications with
418 consolidation studies between fiscal     stakeholders to enhance transparency.
years 2004 and 2011, resulting in
103 consolidations. The mail processing      Consolidation activities during the 2012
network included about 487 facilities in     fall mailing season conflicted with
2011.                                        information shared with stakeholders. In
                                             addition, overall cost saving projections
The Postal Service has repeatedly            were revised on several occasions,
revised plans to optimize its mail           causing stakeholders to further question
processing network. On September 15,         the initiative. When information is
2011, the Postal Service announced the       inconsistent, the Postal Service risks
Network Rationalization Initiative, which    diminishing public confidence while
studied 252 mail processing facilities for   increasing opposition to optimization
potential consolidations to reduce costs     efforts.
and improve efficiency. Management
approved the Network Rationalization         WHAT THE OIG RECOMMENDED:
Initiative plan on February 22, 2012. On     We recommended management
May 17, 2012, management modified            improve communications with
the implementation schedule.                 stakeholders by ensuring they share
                                             accurate and consistent information on
Our objective was to identify lessons        consolidation impacts.
learned from current and past mail
processing network rationalization           Link to review the entire report
initiatives. The review focused on
March 27, 2013

MEMORANDUM FOR:           DAVID E. WILLIAMS
                          VICE PRESIDENT, NETWORK OPERATIONS


                                  E-Signed by Michael A. Magalski
                               VERIFY authenticity with eSign Desktop


FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Management Advisory – Lessons Learned
                          from Mail Processing Network Rationalization Initiatives
                          (Report Number NO-MA-13-004)

This report presents the results of our review of the Lessons Learned from Mail
Processing Network Rationalization Initiatives (Project Number 12WG009CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Corporate Audit and Response Management
Lessons Learned from Mail Processing Network                                                                      NO-MA-13-004
 Rationalization Initiatives




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mail Processing Network Rationalization Initiatives ........................................................ 2

   Planning for the Mail Processing Network Rationalization Initiatives ........................... 3

   Communication Associated with the Mail Processing Network Rationalization
    Initiatives .................................................................................................................. 4

   Execution of the Mail Processing Network Rationalization Initiatives .......................... 6

Recommendation ............................................................................................................ 9

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Management's Comments ........................................................................ 12
Lessons Learned from the Network and                                                                     NO-MA-13-004
 Retail Rationalization Initiatives



Introduction

This report presents the results of our review of the U.S. Postal Service’s Network
Rationalization Initiatives (NRI) (Project Number 12WG009CI000). Our objective was to
identify Postal Service lessons learned from current and past mail processing NRI. The
review focused on the project planning, communications, and execution of these
initiatives. This self-initiated review addresses strategic risk. See Appendix A for
additional information about this review.

The Postal Service has repeatedly revised plans to rationalize its mail processing
network and launched a nationwide realignment in 2011 called the NRI. The goal of the
initiative was to reduce costs and improve efficiency.

On September 15, 2011, management announced the initiative to study about 252 1 mail
processing facilities for consolidation or closure. On December 5, 2011, the Postal
Service submitted testimony to the Postal Regulatory Commission (PRC) about service
changes needed for the initiative. On December 13, 2011, the postmaster general
announced a moratorium through May 15, 2012, on the consolidation or closure of mail
processing facilities. The moratorium resulted from a request by U.S. senators to give
congress time to adopt legislation addressing the Postal Service’s financial crisis.

On February 22, 2012, management announced an updated plant closure list consisting
of 264 facilities. Of the 264 mail processing facilities being studied, six were on hold for
further study, 35 were disapproved and will remain open, and 223 will be consolidated.
After receiving stakeholder pushback regarding service impacts and the aggressive
implementation schedule, management revised the initiative on May 17, 2012. The
original plan to consolidate about 252 mail processing facilities was changed to a two-
phase plan to coincide with changes in overnight service standards2 and allowed for a
methodical and measured implementation. Phase 1 of the plan anticipated about 48 3
facilities being consolidated from July through August 2012 and about 100 facilities
being consolidated in 2013, and phase 2 anticipated about 114 facilities being
consolidated in 2014.

Conclusion

The Postal Service has improved its mail processing network optimization processes as
a result of lessons learned from current and past initiatives. We noted improvements in

1
  The Postal Service announced it would study 252 mail processing facilities for consolidation or closure. Eight facility
studies had already been initiated before the announcement and four additional studies were undertaken after that,
so the total number of facilities studied was 264.
2
  Current service standards for Priority Mail and First-Class Mail (FCM) are 1 to 3 days, Periodicals is 1 to 9 days,
Package Services is 2 to 8 days, and Standard Mail is 3 to 10 days. Under the NRI, service standards would be 2 to
3 days for FCM, 2 to 9 days for Periodicals, 2 to 8 days for Package Services, and 3 to 10 days for Standard Mail.
3
  Forty-six facilities were consolidated, with two on hold pending further review.
                                                             1
Lessons Learned from the Network and                                                                   NO-MA-13-004
 Retail Rationalization Initiatives


project planning, communications, and execution; however, further refinements are
warranted. The NRI was a top-down initiative, which standardized the review process
and improved consistency; however, the initiative experienced communication
challenges with stakeholders, which increased opposition. Consolidation activities
during the 2012 fall mailing season also conflicted with some information shared with
stakeholders. In addition, the Postal Service repeatedly revised estimated cost savings,
which caused stakeholders to further question the initiative. When information is
inconsistent, the Postal Service risks diminishing public confidence while increasing
opposition to optimization efforts.

Mail Processing Network Rationalization Initiatives

From fiscal years (FY) 2004 to 2011, the Postal Service initiated 418 area mail
processing (AMP) 4 studies, 103 of which resulted in consolidations. The Postal Service
has improved the process for reducing excess capacity in the mail processing network.
Management revised policies, enhanced the process used to manage plant closures,
and added a top-down 5 planning approach for identifying potential facilities for
consolidation or closure.

On September 15, 2011, the Postal Service announced the NRI to improve operational
and financial performance through:

   Eliminating overnight service standards6 for FCM and Periodicals.

   Closing or consolidating 252 of 487 (52 percent) mail processing facilities.

   Reducing the transportation network.

   Reducing the workforce by 35,000 positions.

   Completing implementation by 2013.

According to management, right-sizing the Postal Service’s mail processing network
would lead to significant cost savings. When management announced the NRI, their
plan was to streamline the network by studying 252 mail processing facilities throughout
the U.S. for potential closure or consolidation.




4
  An AMP is a study to analyze the feasibility of relocating mail processing operations from one location to another to
improve capacity, efficiency, and service.
5
  A top-down planning approach occurs when consolidation opportunities are initiated from headquarters using
modeling techniques. A bottom-up approach occurs when consolidation opportunities are initiated by local
management.
6
  Current service standards for Priority Mail and FCM are 1 to 3 days, for Periodicals 1 to 9 days, for Package
Services 2 to 8 days, and for Standard Mail 3 to 10 days. Under this initiative, service standards would be 2 to 3 days
for FCM, 2 to 9 days for Periodicals, 2 to 8 days for Package Services, and 3 to 10 days for Standard Mail.

                                                           2
Lessons Learned from the Network and                                                                       NO-MA-13-004
 Retail Rationalization Initiatives



Planning for the Mail Processing Network Rationalization Initiatives

The Postal Service has improved the planning process for mail processing
consolidations. Management added a top-down approach when planning network
consolidations and revised Handbook PO-408. 7 Management initiated 418 AMP studies
between FYs 2004 and 2011 and, during the same period, the U.S. Postal Service
Office of Inspector General (OIG) issued 32 audit reports related to consolidations and
found that a valid business case existed for 31 of the 32 consolidations (97 percent). In
a prior OIG management advisory, 8 we noted inconsistencies with the bottom-up
planning approach because area operations are autonomous and standardized criteria
for identifying consolidation opportunities did not exist at that time. Management
subsequently included a top-down planning approach to achieve consistency and
standardization.

Although management has improved their planning process, we noted challenges in
estimating cost savings for the initiative. Specifically, management revised the
estimated cost savings several times, causing stakeholders to further question the
proposed savings.

   On September 15, 2011, the Postal Service announced the NRI to improve
    operational and financial performance. Management said they would study about
    252 mail processing facilities for consolidation or closure with an annual cost savings
    of up to $3 billion.

   On December 5, 2011, management submitted an estimated cost savings of $2.6
    billion to the PRC.

   On April 30, 2012, management submitted a revised plan to the PRC to study about
    230 mail processing facilities for consolidation or closure. The annual cost savings
    estimate was reduced from $2.6 billion to $1.6 billion. 9

The cost savings varied because management stated they were preliminary estimates,
pending approval of the AMP studies. Management was not making decisions on which
facilities to consolidate or close during the planning phase and, as a result, the OIG
could not validate the reasonableness of the cost savings. These changes in cost
savings caused further stakeholder resistance to the initiative.

A reduction in workhours and employee complement is the largest contributor to cost
savings from mail processing network changes. With the NRI, management planned to

7
  Handbook PO-408, Area Mail Processing Guidelines, provides a process for the review and implementation of AMP
proposals.
8
  Area Mail Processing Initiation Process, OIG Management Advisory (Report Number EN-MA-O7-001, June 26,
2007).
9
  Subtracting the annualized contribution loss of $.5 billion from cumulative cost savings of $2.6 billion results in a net
annual savings of $2.1 billion from the December 5, 2011, PRC testimony and $1.6 billion from the April 30, 2012,
PRC revised testimony, respectively.

                                                             3
Lessons Learned from the Network and                                                                    NO-MA-13-004
 Retail Rationalization Initiatives


reduce 35,000 employees, mainly by using attrition and Article 12 10 union contract
provisions. However union contracts make it challenging to reduce the workforce due to
no layoff clauses for full-time employees. Subsequently, management revised the
initiative as follows:

    Management had voluntary early retirement authority (VERA) for FY 2012 and may
     request an extension to FY 2013. 11

    On May 25, 2012, management announced the availability of Voluntary Early
     Retirement (VER) and buyouts for 45,000 mail handlers. As of September 30, 2012,
     2,952 mail handlers accepted the VER and buyout offer.

    On August 29, 2012, management offered VER to 3,300 managers and
     administrative staff. 12 The offer closed on December 31, 2012, and 196 employees
     accepted the offer.

    On September 28, 2012, management offered VER and buyouts for 187,700
     American Postal Workers Union (APWU) employees. On January 31, 2013, 20,816
     full-time career APWU employees separated from the Postal Service with this offer.
     In addition, as of February 5, 2013, 2,033 part-time employees accepted this offer.

Communication Associated with the Mail Processing Network Rationalization Initiatives

In a past review of network optimization initiatives, 13 we noted that management
enhanced the AMP communications plan five times between April 1995 and
March 2008. We recommended the Postal Service further enhance the communication
plan through increased communications with employees during the AMP process and
increased use of web-based communication for disseminating AMP details to
stakeholders. The Postal Service agreed with our recommendation and used
web-based tools to enhance communications with employees.

The Postal Service made significant improvements to the AMP communications plan,
and communication with employees and mailers has improved. The Consumer and
Industry Affairs and Corporate Communications groups have been actively engaged in
the communication process during the revised NRI. In discussions with management,
enhanced processes have been implemented for communications with stakeholders,
including:

10
   Article 12 of the Collective Bargaining Agreement applies when a major relocation of employees is planned in a
major metropolitan area. The Postal Service must meet with the unions at the national level at least 90 days in
advance of the plan’s implementation and must also meet with unions at the regional level in advance of the
relocation (6 months in advance, if possible). When an independent installation is discontinued, full-time and part-time
employees will be involuntarily reassigned to continuing installations, to the maximum extent possible.
11
   VERA allows agencies that are undergoing substantial restructuring, reshaping, downsizing, transfer of function, or
reorganization to temporarily lower the age and service requirements to increase the number of employees who are
eligible for retirement.
12
   The buyout incentive was not offered to this group of managers and administrative staff.
13
   U.S. Postal Service Past Network Optimization Initiatives (Report Number CI-AR-12-003, dated January 9, 2012).

                                                           4
Lessons Learned from the Network and                                                               NO-MA-13-004
 Retail Rationalization Initiatives



    Adoption of a communications plan that includes a timeline of when and how
     rationalization information is distributed. This timeline includes:

     o Sending out press releases and key messages timely.

     o Providing scripted talking points for all levels of management.

     o Providing release dates and times for information updates to the Postal Service
       intranet.

     o Providing scripted stand-up talks with impacted employee groups.

     o Providing briefings to unions before releasing information to the public.

    Additional coordination has aided the communications process for both internal and
     external stakeholders, including:

     o Holding more press conferences on the modified rationalization efforts.

     o Tracking progress with a newly created hot action report that is distributed every
       morning.

     o Developing Business Service Network (BSN) eSERVICE 14 portals for customers
       to enter concerns and issues.

     o Using the CustomerFirst! system 15 for any customer with mail concerns and
       issues.

     o Using cross-functional teams to enhance coordination, informing stakeholders of
       up-to-date information, and ensuring unexpected changes or events can be more
       efficiently and effectively addressed.

While the Postal Service has improved communications with stakeholders, there
continues to be concern regarding the consistency of information provided, the
transparency of information shared with stakeholders, and the perception that
management does not consider public input when making decisions to consolidate
operations. When communications are inconsistent, the Postal Service risks diminishing
public confidence while increasing opposition to optimization efforts.




14
   BSN eSERVICE is a dedicated nationwide network providing service support to the Postal Service’s largest
customers for service issues, information, and requests.
15
   A system that Postal Service BSN representatives uses to track and provide feedback on mail concerns.

                                                        5
Lessons Learned from the Network and                                                               NO-MA-13-004
 Retail Rationalization Initiatives


Specifically:

    Management conducted limited consolidation activities from September through
     December 2012 at the Kilmer, NJ Processing and Distribution Center (P&DC) and
     Steubenville, OH Customer Service Mail Processing Center (CSMPC). Management
     stated these activities were essential and had a limited impact on operations.
     Although these consolidation activities were limited, they contradict some
     communications16 indicating no consolidations would occur during this period.
     Headquarters management stated that they provided information during
     presentations that might limit consolidations from September through
     December 2012. Management stated Steubenville CSMPC incoming primary mail
     operations were scheduled to move during the summer but were delayed. As a
     result, management revised the plan and made those moves in November.

    Congressional staffers stated constituents complained that they were not provided
     with relevant and timely information during public meetings. Specifically, the Postal
     Service did not provide attendees with detailed information on the impact of
     consolidations on mail delivery.

    Congressional staffers provided varied and conflicting information on how well the
     Postal Service shared information directly with their offices.

Execution of the Mail Processing Network Rationalization Initiatives

The Postal Service announced the initiative on September 15, 2011. It was the largest
infrastructure plan the agency ever proposed. There has not been enough time to
assess results from the initial phase of consolidations. Our prior review of locally
initiated consolidations showed that results generally exceed projections, based on the
process the Postal Service used to assess results.

Management received stakeholder pushback about the initiative, updated its PRC filings
and changed to a phased incremental plan to be completed by 2014.

    Phase 1 consolidations occurred from July through August 2012 17 with 46 18
     consolidations.

    Phase 1 resumed January 2013 with about 92 19 planned consolidations.


16
   Various communications included the May 17, 2012, Press Release; Release Number 12-058, Postal Moves
Ahead with Modified Network Consolidation; the Mandatory Stand-Up Talk for Postal Service employees, Modified
Network Consolidation Plan, May 16 - 17, 2012; Postal Service Newslink, Modified Network Consolidation Plan,
May 17, 2012; Mandatory Service Talk on NRI for Postal Service employees who work with customers, May 17,
2012; and a Political Mail is Evolving PowerPoint presentation, July 18, 2012.
17
   The following consolidations occurred between May and June 2012: Cardiss Collins P&DC, Terre Haute
Processing and Distribution Facility (P&DF), Gaylord P&DF, Lansing P&DC, Ft. Lauderdale P&DC, and Utica P&DF.
18
   The Postal Service announced 48 consolidations; however, it completed 46 due to two plant consolidations placed
on hold: the Carbondale CSMPC and the Centralia CSMPC.
19
   On February 11, 2013, management stated 100 consolidations were planned for 2013.

                                                        6
Lessons Learned from the Network and                                                               NO-MA-13-004
 Retail Rationalization Initiatives


    Phase 2 will begin February 2014 with about 112 20 planned consolidations.

    The current plan for 2014 will keep overnight service standards for some commercial
     mail entered by the posted cut-off time for processing mail at specific facilities.

Management stated that phased implementation of the initiative provides customers and
employees with time to adapt to the smaller mail processing network, meets cost-
reduction goals while maintaining service performance, and addresses scheduling
constraints due to the holiday mailing seasons. In addition, incremental implementation
allows management to develop and use any lessons learned for future consolidations.

In our past network optimization initiatives audit, 21 we noted that four of 31 AMPs
supported by a valid business case encountered service issues during
implementation. 22 This occurred when management deviated from the original AMP
proposal and employees were unfamiliar with the AMP process or underestimated the
potential impact on service. To address the issue, management now monitors mail
processing consolidations using tools and processes that include:

    The mail move plan for consolidation locations, which is updated weekly and posted
     on the Postal Service’s Rapid Information Bulletin Board System (RIBBS) 23
     https://ribbs.usps.gov/ to keep Postal Service mailers informed of the consolidation
     progress.

    Enhanced communications with the mailing industry in which management use
     industry alerts 24 and webinars to keep informed of mailer concerns regarding the
     implementation process.

    A feedback system to address customer issues in which management uses district
     manager customer meetings, RIBBS, local business mail entry unit communications,
     and www.usps.com to address customer issues regarding the NRI.




20
   On January 17, 2013, management provided an updated consolidation list to the National Postal Mail Handlers
Union, moving 18 consolidations from the 2014 list to the 2013 list. On February 11, 2013, management stated 114
planned consolidations for 2014.
21
   U.S. Postal Service Past Network Optimization Initiatives (Report Number CI-AR-12-003, dated January 9, 2012).
22
   AMP studies noted with concerns were Timeliness of Mail Processing at the Los Angeles, California, Processing
and Distribution Center (Report Number NO-AR-07-001, dated February 9, 2007), Marysville Processing and
Distribution Facility (Report Number EN-AR-08-003, dated April 16, 2008), Mojave Post Office Mail Processing
Changes (Report Number EN-MA-10-002, dated January 21, 2010), and Implementation of Lima, OH to Toledo, OH
Area Mail Processing Consolidation (Report Number EN-AR-11-004, dated March 31, 2011).
23
   RIBBS is part of the Postal Service’s National Customer Support Center (NCSC). The NCSC works closely with the
mailing industry, vendors, and internal postal customers to improve address quality. The RIBBS web portal provides
access to the Postal Service’s products and services that help business mailers standardize, validate, and update
their address data.
24
   The ‘Information for Mailers’ web page that management uses to inform, update, and alert mailers and customers
of information pertinent to their area.

                                                        7
Lessons Learned from the Network and                                                                   NO-MA-13-004
 Retail Rationalization Initiatives



    An early warning system of key indicators, used to diagnose issues before they
     become adverse service impacts. 25

Management uses service performance measurements to monitor service impacts
during facility consolidations. Examples of some service performance measurements
include:

    Intelligent mail barcode (IMb), which provides end-to-end visibility for mail
     acceptance and delivery.

    Delayed mail service reports, which show the amount of mail delayed in the
     processing facility.

    24-hour clock indicators, which measure key indicators of operating performance at
     mail processing facilities that may influence service.

    External First-Class service scores, which are the results of tests an independent
     contractor performs to measure service performance for FCM (letters, flats, and
     postcards) from mailbox to delivery.

    Commercial mail service measurement that measures every mailpiece of mailers
     who use full-service IMb.

According to management, leveraging these tools has been instrumental to the success
of the summer consolidations implemented in July and August 2012. While this review
did not allow time to fully evaluate Phase I consolidations, we plan to conduct future
audit work to assess some consolidations. 26

Management has also implemented a strategic initiative called Delivering Results,
Innovation, Value and Efficiency (DRIVE), Initiative 1, Network Optimization. 27 The
Postal Service designed the DRIVE Initiative 1 to implement an efficient and affordable
network and supporting infrastructure that corresponds to the reduced volume of mail.
In addition, this initiative will adjust the workforce and dispose of facilities, vehicles, and
equipment to support the reduction in the network infrastructure.




25
   The early warning system is a dashboard with various early warning indicators, such as mail condition report, cycle
times, and service performance tools reviewed daily. Management said if they detect problems early enough, they
can fix them before they become more significant problems.
26
   Rockford, IL P&DF, Altoona P&DF, Greensburg CSMPC, New Castle P&DF, and Southeastern P&DC
consolidations were congressional requests received from the original listing of 252 facilities the Postal Service
announced on September 15, 2011. These five facilities were also part of the July through August 2012 revised
consolidation plan.
27
   DRIVE is a management process the Postal Service uses to improve business strategy development and
execution.

                                                          8
Lessons Learned from the Network and                                          NO-MA-13-004
 Retail Rationalization Initiatives


Recommendation

We recommend the vice president, Network Operations:

1. Improve the communication process by ensuring accurate and consistent
   information is shared with stakeholders on consolidation impacts.

Management’s Comments

Management agreed with the finding and recommendation. Management stated that
they will continue striving to ensure that accurate and consistent information is provided
to stakeholders, will add further enhancements to AMP information posted on usps.com,
and will work with all relevant functions within the Postal Service to further ensure the
agency shares relevant information with all stakeholders on a timely basis. Management
plans to complete enhancements by April 2013.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective action should resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            9
Lessons Learned from the Network and                                                              NO-MA-13-004
 Retail Rationalization Initiatives



                                Appendix A: Additional Information

Background

In 2003, the President’s Commission 28 found that the Postal Service had more facilities
than needed and recommended optimizing the facility network by closing or
consolidating processing centers. The Postal Accountability and Enhancement Act of
2006 encourages the Postal Service to continue streamlining its processing and
distribution network to eliminate excess costs. The Postal Service’s Transformation
Plan 29 states that the Postal Service is committed to improving its operational efficiency
by consolidating mail processing operations when feasible. In addition, the initiative is
part of DRIVE, the management process the Postal Service is using to implement its
current performance and financial goals.

The Postal Service initiated 418 AMP studies between FYs 2004 and 2011. During the
same period, the OIG issued 32 AMP-related audit reports. Of the 32 reports, a valid
business case existed for 31 of the AMPs (97 percent) reviewed. Since FY 2004, the
Postal Service has improved the AMP process. This resulted in better data consistency,
planning, and implementation and a better review process.

According to the Postal Service, right-sizing the Postal Service’s mail processing
network is part of the present initiative that will lead to significant cost savings. On
September 15, 2011, the Postal Service announced a nationwide realignment (the NRI)
of its mail processing network to reduce cost and improve efficiency. Management
announced they would study about 252 of the 487 mail processing facilities for
consolidation or closure. This initiative would also reduce the transportation network,
reduce the workforce by 35,000 positions, and be fully implemented by 2013. This was
the largest infrastructure plan ever attempted by the Postal Service. In the previous
7 fiscal years, 30 the Postal Service implemented 101 AMP consolidations, 82 of which
were implemented in FYs 2011–2012. On May 17, 2012, management revised the
previously published initiative and announced a phased plan to enable a more
methodical and measured implementation.

Objective, Scope, and Methodology

Our objective was to identify lessons learned from current and past mail processing
NRI. To accomplish this objective, we:

    Reviewed prior OIG reports for planning, communications, and execution of mail
     processing network initiatives.


28
   The Commission was asked by President George W. Bush to gather the opinions of postal experts, customers,
partners, and competitors and employees in this document, The President’s Commission on the U.S. Postal Service,
dated July 31, 2003.
29
   Strategic Transformation Plan, Annual Progress Report, December 2006.
30
   FYs 2005 – 2011.

                                                       10
Lessons Learned from the Network and                                          NO-MA-13-004
 Retail Rationalization Initiatives



   Identified lessons learned in the planning, communications, and execution of these
    initiatives.

   Identified concerns and risks associated with the objective.

   Discussed preliminary audit topics with Postal Service, Network Operations
    management.

   Conducted interviews with Postal Service managers to gain an understanding of
    their lessons learned as applicable to our objective.

   Conducted interviews with congressional staffers, National Postal Mail Handlers
    Union executives and representatives, and plant management to discuss
    communication concerns applicable to our objective.

   Reviewed PRC advisories and Postal Service testimony to the PRC regarding the
    mail processing network rationalization initiative.

Because of the limited information available due to the timing of the consolidations, we
did not assess the Phase 1 NRI consolidations.

We conducted this review from June 2012 through March 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our conclusions with management on
November 14, 2012, and on February 11, 2013, and included their comments where
appropriate. We did not rely on computer-generated data to support the findings.

Prior Audit Coverage

U.S. Postal Service Past Network Optimization Initiatives (Report Number CI-AR-12-
003, dated January 9, 2012).

We determined that a valid business case exists for 31 of the 32 AMPs (97 percent) we
reviewed. These business cases were supported by adequate capacity, increased
efficiency, reduced workhours and mail processing costs, and improved service
standards. However, the AMP process could be further enhanced by improving
communication with stakeholders. In addition, five AMPs for which post-implementation
reviews (PIR) were performed did not achieve the projected savings, resulting in a
predicted savings shortfall of approximately $9.7 million. We recommended
management establish a plan to improve communication with stakeholders concerning
the consideration of stakeholder input provided to the Postal Service and improve the
timeliness of conducting PIR. Management agreed with the recommendations and will
enhance the AMP Communication Plan to incorporate stakeholder input concerning
AMPs and will ensure resources are allocated to complete PIRs timely.



                                            11
Lessons Learned from the Network and                          NO-MA-13-004
 Retail Rationalization Initiatives


                          Appendix B: Management's Comments




                                         12
Lessons Learned from the Network and        NO-MA-13-004
 Retail Rationalization Initiatives




                                       13
